                                  TABLE OF CONTENTS

Introduction .............................................................................................................1
         Background ........................................................................................................................1
         Prior Reviews of USPP .....................................................................................................2

Results in Brief ........................................................................................................4

Icon Security ............................................................................................................6
         Icon Coverage ....................................................................................................................7
         Security Plans ..................................................................................................................16
         Training & Qualifications ..............................................................................................17

Officer Safety .........................................................................................................20
         Staffing..............................................................................................................................20
         Firearms ............................................................................................................................21
         Ballistic Vests ...................................................................................................................23
         Vehicles.............................................................................................................................25

Financial Management .........................................................................................29
         Budget Formulation & Execution .................................................................................29
         Accountability .................................................................................................................32

Management ..........................................................................................................34
         Agency Morale & Confidence in Command Staff......................................................34
         Communication...............................................................................................................35
         Quality Control................................................................................................................36

Recommendations ................................................................................................37

Appendix 1.............................................................................................................40
                              INTRODUCTION                                                          X
   The United States Park Police (USPP) Fraternal Order of Police, Labor Committee,
   conducted a survey asking members 12 questions regarding various subjects including
   icon security, officer safety, training, and confidence in the command staff. The results
   of the survey, published in January 2007, were alarmingly negative in all areas.
   Approximately, eighty-six percent of the survey respondents said that they do not think
   the icons are as safe as they could be, and a large majority believes that they do not have
   the necessary equipment and training to perform their duties. As a result of the
   Fraternal Order of Police survey and as part of a continuing commitment by the Office
   of Inspector General (OIG) to examine U.S. Department of the Interior (DOI or
   Department) law enforcement programs and homeland security efforts, we initiated an
   assessment of USPP in April 2007.

   We chose to focus our assessment principally on determining whether USPP has been
   taking appropriate measures to protect national icons and ensuring officer safety. In
   addition, we evaluated the formulation and execution of the USPP budget, and USPP
   management practices.

   To accomplish our objective, we conducted over 100 interviews of both USPP law
   enforcement personnel and support staff. In addition to USPP, we interviewed
   Department and National Park Service (NPS) officials concerning USPP operations. We
   observed security measures at the Washington Monument, the Lincoln Memorial, the
   Jefferson Memorial, and the Statue of Liberty, and we reviewed numerous documents
   relating to USPP operations. Additionally, we afforded USPP personnel the
   opportunity to provide their comments, concerns, and suggestions through e-mail.

   Because the subject of this report involves matters that are security sensitive, the exact
   numbers of staff required or positioned at fixed posts will not be presented in this
   report.


BACKGROUND

   USPP was founded in 1791 and is
   one of the nation’s oldest uniformed
   federal law enforcement agencies.
   USPP provides law enforcement
   services to designated areas within
   NPS, primarily the metropolitan
   areas of Washington, D.C.; New
   York City, NY; and San Francisco,
   CA. The agency is composed of
   approximately 592 sworn officers, 97
   civilian personnel, and 30 security



                                                                                                1
                                                                                                   X
   guards. USPP has three major divisions - the Services Division, the Field Offices
   Division, and the Operations Division, each commanded by a deputy chief.
   Additionally, the Planning and Development Unit, the Office of Professional
   Responsibility, and the Special Protection Unit provide direct support to the chief of
   police (See Appendix 1 for an organization chart).

   On its Web site, USPP states that its mission is the following:

          We, the United States Park Police, support and further the mission and
          goals of the Department of the Interior and the National Park Service by
          providing quality law enforcement to safeguard lives, protect our national
          treasures and symbols of democracy, and preserve the natural and
          cultural resources entrusted to us.

   USPP contributes to this mission through crime prevention, drug enforcement,
   investigative work, crowd control at public events, and presidential and dignitary
   protection. USPP also provides security services at the Washington Monument, the
   Jefferson Memorial, the Lincoln Memorial, and the Statue of Liberty and supplements
   security services provided at the Golden Gate Bridge. USPP’s involvement in icon
   security is limited to these icons. Other national icons, such as the St. Louis Arch, Mt.
   Rushmore and Independence Hall, while also managed by NPS, are secured by NPS
   rangers and contract security guards.


PRIOR REVIEWS OF USPP

   Over the past 6 years, several entities have published reports regarding USPP
   operations, including the National Academy of Public Administration, the OIG, and the
   Government Accountability Office (GAO). The reports issued by these entities exposed
   weaknesses within USPP and offered recommendations for improvement.

   In 2001, the National Academy of Public Administration issued a report addressing
   deficiencies within USPP and provided 20 recommendations to improve USPP
   “through clarifying its mission, strengthening its leadership and accountability, and
   improving its financial and workforce management.” In 2004, the National Academy of
   Public Administration reported on the status of the implementation of its 2001
   recommendations and found that only 4 of the 20 recommendations had been fully
   implemented and 2 had been rejected. The Academy further evaluated USPP’s mission,
   priorities, spending, and staffing trends and provided additional recommendations for
   consideration.

   In 2003, the OIG conducted a review of security at national icon parks and found that
   NPS, including USPP, had “failed to successfully adapt its mission and priorities to



                                                                                               2
                                                                                             X
reflect its new security responsibilities.” The report noted that some of the deficiencies
could be attributed to the program’s infancy, but others arose from a lack of
management support of the security mission. The report provided 10 recommendations
to improve the continuity and efficiency of icon security throughout NPS.

Finally, in 2005, GAO conducted a review to identify challenges facing DOI in
protecting national icons and to identify related actions taken to address those
challenges. Overall, GAO found that DOI had improved security at national icons.
GAO recommended that DOI take further steps to link results of risk rankings to
security funding priorities and establish guiding principles for balancing security
responsibilities while achieving the Department’s core mission.




                                                                                        3
                        RESULTS IN BRIEF                                                      X
USPP continues to struggle with the competing missions of protecting national icons
and monuments and functioning as an urban police department at the same time and
with the same resources. Consequently, USPP has failed to adequately perform either
mission, which has resulted in deficient security at national icons and monuments and
an inability to effectively conduct police operations. USPP operations have been
scrutinized in a number of reports over the past 6 years, yet USPP managers have only
been minimally successful in implementing recommendations for improvements made
in these reports.

Despite national and departmental mandates that require the development and
coordination of comprehensive policies, practices, and protective measures, USPP has
failed to establish a comprehensive security program for the protection of national icons
and monuments. Although USPP officials have stated that the protection of national
icons and monuments is a top priority, USPP does not have centralized command level
oversight of icon protection. Decisions affecting icon protection are primarily made at
the local level.

USPP has not developed comprehensive asset security plans or provided formal
training for those responsible for protecting the icons. Additionally, USPP has been
unable to properly staff security posts; instead, USPP relies on the use of closed circuit
television camera systems to augment security coverage even though these systems are
not continuously monitored and are not fully functional. Although USPP and contract
security personnel share security duties at the national icons and monuments, we found
there is little, if any, cooperation and communication between the two groups. This was
particularly evident in Washington, D.C., where officers told us that many of the
security guards spoke little English and had little, if any, contact with USPP officers.

Many of the officers assigned to icon and monument protection had not received
specialized security training for the protection of national icons and monuments.
Similarly, USPP officers have not received minimum annual training, as required by
USPP General Orders. USPP recently offered its annual in-service training for the first
time in almost 5 years.

Despite increased responsibilities involving the protection of national icons and
monuments, USPP staffing levels are lower now than they were 6 years ago.
Consequently, USPP has been unable to balance staffing requirements between icon
protection and its law enforcement obligations. The lack of a sufficient number of
officers has also resulted in concerns with officer safety.

Many USPP officers have not met minimum firearm qualification standards with their
duty weapons because of a reported lack of ammunition. Officers at the San Francisco
Field Office had not qualified with their weapons in over 1 year.




                                                                                          4
                                                                                                 X
While we were told that many of the ballistic vests issued to USPP officers were in
disrepair, we found these instances to be isolated and not systemic. Yet, we did find
that USPP had not taken immediate action to replace ballistic vests containing Zylon, a
material determined to be noncompliant with federal standards. We also discovered
that USPP did not regularly inspect or maintain a reliable inventory of ballistic vests.

USPP officers in Washington, D.C., do not have enough vehicles for them to properly
patrol and respond to calls for service. Many of the available vehicles are ill equipped
to respond to emergencies. In fact, we witnessed officers patrolling in a van that had no
emergency lights, sirens, or other necessary emergency equipment.

The majority of officers assigned to the Washington metropolitan area acknowledged
driving a personally owned vehicle to their beat or post and when traveling from one
beat or post to another. While we were told that officers assigned to icon security posts
had responded to calls for service using their personally owned vehicles, none of the
officers we interviewed admitted to personally responding to a call using their personal
vehicles.

USPP has failed to put the proper infrastructure in place to successfully manage its
financial affairs, including hiring a qualified individual who can properly oversee and
manage USPP appropriations and expenditures. During an NPS review of USPP
procurement operations, auditors found that these operations were significantly
deficient and inconsistent with Federal Acquisition Regulations and USPP policy.

Although we did not conduct an in-depth review of USPP management practices, our
assessment indicated a systemic lack of management and oversight by senior agency
officials that has impacted the ability of the agency to function as its mission statement
intended. Many of the issues we discovered have contributed to low morale, a lack of
confidence in command staff, and poor communication between USPP command staff
and officers in the field.




                                                                                             5
                                   ICON SECURITY                                                                        X
USPP continues to struggle with fulfilling its responsibility to protect the Statue of
Liberty, the Washington Monument, the Lincoln Memorial, and the Jefferson Memorial
to the degree necessary given the associated national significance of the icons. Several
reports over the years have provided USPP with numerous recommendations to
improve the management and operations of national icon security. USPP officials
continue to state that icon security is a top priority; however, their actions indicate
otherwise. According to the Fraternal Order of Police’s survey, nearly eighty-six
percent of the respondents do not feel that the icons are as safe as they could be.

USPP’s failure to dedicate the appropriate level of attention to icon security is
evidenced by the lack of a well established comprehensive security program. The
responsibility for managing the agency’s icon security program is decentralized and has
been delegated to mid-level managers from command staff. Two lieutenants, one at the
Statue of Liberty, and another in Washington, D.C., are designated as the agency’s
security managers for icon protection. These lieutenants are responsible for
coordinating all icon security efforts, ensuring equipment is maintained, and overseeing
security guard contracts. The lieutenants report to their respective district commanders
with no centralized command-level oversight of icon protection. Decisions affecting
icon protection, including staffing, physical security measures, and training, are
primarily made at the local level.

In January 2002, the OIG recommended that each bureau establish a senior-level (GS­
14/15), full-time, credentialed security manager to oversee Service-wide security
issues. 1 This recommendation was later accepted by the Secretary of the Interior in July
2002 for implementation. 2 This position was envisioned as being responsible for
creating policy, establishing procedures, setting priorities, and managing funding. In
two follow-up assessments we found that NPS had failed to fully implement the
directive. 3 We found that NPS was slow to establish a security manager position and
when eventually filled, the manager did not possess the requisite security management
experience, training and grade level. In addition, this bureau level security manager is
not responsible for security at icons that have a USPP presence, thus failing to provide
NPS a dedicated credentialed security manager as called for in the Secretary’s
Directives.

The lack of a comprehensive program with centralized senior-level oversight of icon
security within NPS, coupled with a similar shortcoming within USPP, has contributed
to weaknesses in USPP’s security program. USPP has been unable to achieve and
maintain adequate security coverage at the icons. Additionally, USPP has failed to

1
  “Disquieting State of Disorder: An Assessment of Department of the Interior Law Enforcement,” p.25
2
  “Law Enforcement at the Department of the Interior, Recommendations to the Secretary for Implementing Law
   Enforcement Reforms,” directive #16
3
  “Homeland Security: Protection of Critical Infrastructure Facilities and National Icons,” and “Progress Report:
   Secretary’s Directives for Implementing Law Enforcement Reform.”



                                                                                                                    6
                                                                                                 X
   develop formal asset security plans or provide a formal training program for those
   responsible for protecting the icons.


ICON COVERAGE

   The Department Manual (444 DM 2) outlines security requirements “necessary to
   minimally safeguard Departmental National Critical Infrastructure/Key Resource
   assets.” As part of these requirements, the manual sets forth minimum provisions for
   security personnel. To comply with these provisions, USPP officials have established
   minimum staffing requirements for each of the national icons in Washington, D.C., and
   for the Statue of Liberty. We found that USPP continues to struggle to meet minimum
   staffing requirements at these icons on an almost daily basis, often reassigning officers
   from other units to fill icon security posts.

   New York

   Current staffing requirements call for a number of fixed posts at the Statue of Liberty
   and the off-site screening areas at Battery Park and Liberty State Park. These posts
   assist in providing 360-degree security coverage and are staffed with USPP officers
   while the Statue is open to the public. In addition to these fixed posts, requirements
   mandate coverage by Special Weapons and Tactics (SWAT), marine patrol, and canine
   units. Contract security guards are used exclusively for providing screening services
   for visitors and authorized vendors.

   Ninety-five percent of the officers interviewed at the New York Field Office said that
   staffing requirements are not being met at the Statue of Liberty. USPP management at
   the New York Field Office admitted that on an ideal day, even when no one is on leave,
   USPP is still unable to meet minimum staffing requirements. USPP managers and
   officers acknowledged that as a result of the lack of staffing, they do not fill all post
   assignments and often require officers from specialized units such as SWAT, marine
   patrol, and canine to fill empty security posts. These specialized units have separate
   and specific duties and responsibilities in relation to security operations, and their
   duties are mitigated when these personnel are filling fixed posts.

   One mid-level manager at the Statue of Liberty told us, “The truth is that we are not
   covering the posts…it’s all smoke and mirrors.” Other officers said that while posts are
   not staffed, on paper they are “covering the Ps,” a phrase used by the Liberty District
   personnel indicating that daily staffing rosters often show that all posts are being
   covered, even when in some cases the officer listed is on leave. We confirmed the
   veracity of these statements during observations made on two separate visits to the
   Statue of Liberty between April and June 2007. On one site visit to Liberty Island on a
   rainy day, we were unable to find any uniformed USPP personnel outside of the



                                                                                             7
                                                                                               X
screening area for several hours. Just before leaving Liberty Island, we did see one
USPP officer walking the perimeter of the island with an NPS ranger. During another
visit, USPP coverage was conspicuously absent at certain times at the north end of
Liberty Island, inside the Statue’s base, at the Statue’s exit gate, and at the island’s
arrival pier. We also reviewed daily staffing rosters and found officers assigned to
posts who were also listed as being on leave.




                   No USPP Officer Presence Observed at Statue of Liberty Exit


The Department’s Office of Law Enforcement, Security, and Emergency Management
(OLESEM) noted similar findings in its April 2007 compliance evaluation of USPP’s
Liberty District in New York. OLESEM reviewed staffing procedures and noted “some
minor staffing and coverage irregularities,” also stating that “on paper, all Liberty
District assignments are covered.” OLESEM noted that to maintain staffing levels,
USPP frequently resorted to using officers from specialty units, reducing the
effectiveness and availability of those units in the event of an emergency.

A mid-level manager at the Statue of Liberty told us, “Some of the problems [with
staffing the Statue of Liberty] have nothing to do with money or people; it’s a
leadership problem … the urgency is not there.” Another mid-level manager told us
that the New York Field Office has explored alternative staffing plans that would
reduce the need for personnel while still providing adequate coverage. The plan was
reportedly presented to the Chief of Police on June 20, 2007; however, no decision has
been made regarding implementation of the proposed plan.


                                                                                           8
                                                                                               X

While we did not fully evaluate physical security measures surrounding the Statue of
Liberty, USPP officials routinely offer the closed circuit television (CCTV) surveillance
camera system as a catch-all response to questions concerning 360-degree security
coverage. CCTV has proven to be a positive asset for incident management and can
later provide video evidence in investigations. CCTV is less effective, however, for real-
time surveillance information. At the Statue of Liberty, 110 CCTV surveillance cameras
cover Liberty Island, Ellis Island, and the screening facilities at Battery Park and Liberty
State Park. All of these cameras are monitored at one central Command and Control
Center located on Liberty Island. Generally, one or two people monitor the CCTV
system in addition to answering telephones and providing dispatch services. OLESEM
also noted this weakness during its policy compliance review and recommended that
USPP assign two personnel to these duties at all times and three during peak visitation
periods.




                           Surveillance Camera Room at Statue of Liberty



While CCTV aids in providing 360-degree coverage, it in no way replaces the need for
USPP personnel staffing. During one of our site visits at Liberty Island, we were
provided with documentation indicating that of the 110 CCTV cameras, 27 were
inoperable while others had limited low light and recording capabilities.
Despite the New York Field Office’s struggle with providing adequate security
coverage through staffing, we found the security manager at the Statue of Liberty has



                                                                                          9
                                                                                             X
implemented security measures. The manager collaborated with private industry
representatives to incorporate state-of-the-art security equipment at the Statue of
Liberty for little or no cost to USPP. Liberty Island has become a test site for security
technology. For example, radar technology is used to identify watercraft that ventures
into the restricted area around Liberty Island. While we recognize USPP for this effort,
we note that this equipment is on loan to USPP, without a contract or agreement, and
could be removed at the discretion of the manufacturer. If the manufacturer removed
this equipment, USPP would not have the resources to replace it.

Washington, D.C.

USPP’s icon staffing requirements for Washington, D.C., stipulate that there will be a
certain number of uniformed USPP officers located at the Washington Monument,
Lincoln Memorial, and Jefferson Memorial, providing 24-hour coverage. In addition to
the USPP officers, each icon is to be staffed with additional contract security guards. A
contract security supervisor is located at the Lincoln Memorial, and additional security
guards are located at the screening area for the Washington Monument. USPP officers
and contract guards are responsible for providing 360-degree coverage at each of the
icons. In addition, USPP officers provide patrol services throughout the National Mall
on motorcycle, horseback, and by vehicle.

Officers assigned to USPP’s Central District are primarily responsible for providing icon
protection in Washington, D.C. Officers performing icon security duties work 12-hour
shifts at an assigned icon with little or no rotation to other posts and are relieved only
for meal breaks. When short on staffing, the division is supplemented with officers
reassigned from neighboring districts and specialized units that do not fall directly
under the Central Division’s chain of command.

Officers see USPP’s mission at the icons as important, but they question how it is
managed. While discussing the manner in which icon security is managed, one officer
stated that icon security in Washington “is just a show put on for people in the
Department of the Interior headquarters building.” Some officers complained about the
lack of mobility they have when filling icon security posts. Another officer e-mailed us,
stating, “First, limiting officers to such a narrow field of operations, precludes the
possibility of encountering and investigating suspicious activity outside of those
boundaries ... Second, limiting officer mobility makes officer movements and
positioning predictable, giving a significant advantage to any group planning actions
against an Icon.”

We found that while USPP and contract security personnel share security duties at the
icons, there is little, if any, cooperation and communication between the two groups.
Many of the USPP officers we interviewed said they would rather be providing
traditional police services instead of securing the icons, yet they resented the security



                                                                                        10
                                                                                            X
guard presence. They also resented the idea of replacing USPP personnel at the icons
with armed contract security guards, believing that these guards would not have the
same level of training or provide the same quality of services as a USPP officer.

Many of the officers we interviewed were critical of the individual security guards
employed by the USPP security contractor at the icons. Officers described these guards
as under trained and ill equipped to handle their duties. They told us that many of the
security guards spoke little English and had little, if any, contact with USPP officers.
While we did not review the overall effectiveness of services provided by the
contractor, during our site visits in Washington, D.C., we found that the security guards
appeared disinterested in their duties, reading the newspaper, talking on cell phones, or
congregating in groups. At times, we also found that guards were conspicuously
absent from their posts. As a result, they provided little visible deterrence.




                     Contract Security Guards at the Washington Monument


USPP renewed the security guard company’s contract at least once since 2004, despite
the contractor’s poor service. USPP is solely responsible for the private company
chosen and the performance of the guards. A mid-level manager told us that the
current company lost its contract with USPP and would be replaced by another
contractor in January 2008.

Unlike in New York, a majority of the officers we interviewed in Washington, D.C.,
believe that staffing requirements are being met at the three icons on the National Mall.



                                                                                       11
                                                                                                 X
Seventy-five percent of the officers and most of the managers we interviewed stated
that staffing requirements are being fulfilled. However, many officers also said these
staffing requirements are often fulfilled by reassigning officers from other districts or
from specialized units.

In March 2007, OLESEM conducted a 2-day policy compliance evaluation at the
national icons in Washington, D.C. OLESEM concluded that “staffing levels at all three
Icons were appropriate, with some minor staffing and coverage irregularities noted.”
However, this statement was based primarily on reviewing staffing rosters covering a 7­
day period and one unannounced site visit lasting 14 to 27 minutes at each of the
monuments. During the unannounced site visits, OLESEM found only one officer
present at the Jefferson Memorial but noted that it observed a person sitting in a parked
car near the parking lot entrance that might have been a USPP officer. At the
Washington Monument, no USPP officers were present during OLESEM’s visit, but
upon leaving the area, OLESEM noted that a USPP officer was parked in a marked
police vehicle near an NPS building southwest of the monument grounds. At the
Lincoln Memorial, OLESEM observed two USPP officers on foot together at the east
side of the circle surrounding the Memorial.

Similar to OLESEM’s single site visit to each of the icons, our observations revealed that
staffing requirements are not being met. We conducted a total of 40 site visits at the
Washington, D.C., icons over a 3-month period, at various times of day, and throughout
the week. The site visits ranged from 20 minutes to over 2 ½ hours. On 3 of the 40 site
visits, or 7 percent of the time, we were unable to locate any officers at the designated
icons. On 27 of the 40 visits, or 68 percent of the time, minimum staffing levels were not
met.

When we presented these findings to the Assistant Chief, he stated that he would not
expect us to see officers. The Assistant Chief explained that the officers should have
been roaming and should not have been standing idle in one place for long periods of
time. When asked about how having officers conspicuously positioned affects visual
deterrence, the Assistant Chief stated that other actions could be taken, such as placing
a patrol car near the monument. He stated that USPP is trying to be as unobtrusive as
possible because being more visible is a sign of defeat. The Assistant Chief also justified
USPP’s security position by stating that terrorists are not incredibly sophisticated
people.




                                                                                            12
                                                                                             X




                    Officer Who Appeared to be Sleeping at the Jefferson Memorial




During the OLESEM compliance evaluation at the icons in Washington, D.C., the
Deputy Chief of Operations told OLESEM officials that USPP had developed a proposal
to change the levels of staffing at the three icons and reallocate resources to patrolling
the areas around the National Mall. OLESEM recommended that the proposal be
presented to NPS and OLESEM’s Deputy Assistant Secretary prior to arbitrarily
implementing changes to an approved staffing plan.

USPP officers and managers also told us that post requirements had been relaxed to
allow officers assigned to each icon to patrol the area surrounding the icon itself,
including parts of the National Mall. We believe this practice has reduced the visibility
of officers, thus not providing an adequate level of visual deterrence at the icons.

We witnessed disturbing incidents and oversights highlighting the lack of security
coverage during the extended random surveillance of the icons. On one occasion, we
found that a grate securing the stairs leading to the area below the Washington
Monument had been left open and unattended for approximately 20 minutes. On
another occasion, an unidentified visitor placed a large suitcase against the Washington
Monument’s south wall. The suitcase was left unattended and unchecked for over 5
minutes before being reclaimed by the visitor. We also found that the visitor centers
located in both the Lincoln and Jefferson Memorials were continuously left
unmonitored and unprotected.


                                                                                        13
                                                                                          X




                     Unattended Open Grate at the Washington Monument



On two occasions, USPP officers detected assessment team members while conducting
covert site visits at the Jefferson and Lincoln Memorials. During the first incident, a
contract security guard confronted assessment team members while they were opening
an unsecured utility access door at the Lincoln Memorial. The second occasion
occurred at the Jefferson Memorial after an assessment team member was detained after
attempting to photograph a USPP officer completing a crossword puzzle for a period of
time inside the Memorial’s information office.

Like the Statue of Liberty, we found that the management of the CCTV system in
Washington, D.C., is ineffective in providing timely surveillance information. One
officer must monitor 96 CCTV cameras on a panel of television monitors for a 12-hour
shift. In addition to monitoring the CCTV system, this officer provides additional
collateral duties such as answering telephones and processing prisoners. During one of
our visits to the office in Washington, D.C., we found no one monitoring the CCTV
system. The office has no dispatch capabilities, and officers monitoring the CCTV
system must communicate with the dispatcher and field personnel by portable radio.

OLESEM also noted these weaknesses in its recent policy compliance evaluation of
Washington, D.C., icons. OLESEM found that a major gap continues to exist in
technological improvements to the CCTV system. While a comprehensive CCTV
system is in place, OLESEM stated that this system needs camera upgrades and
additional staffing to be fully effective.




                                                                                    14
                                                                                            X




                         Surveillance Camera Room for Washington Icons



An incident that occurred at the Lincoln Memorial in August 2007 further emphasized
the lack of adherence to icon security protocols. Two protestors donning costumes
climbed onto the statue’s lap carrying backpacks containing assorted paraphernalia and
hung a banner. The incident was witnessed worldwide on the news, with one headline
stating, “Lincoln Memorial Evacuated As F4J Breach US Security.” The Chief of Police
stated that he was satisfied with the way the incident was handled by officers and noted
that the situation was resolved quickly and without the use of force. The Deputy
Assistant Secretary of Law Enforcement, Security, and Emergency Management,
however, questioned how this incident could have happened if USPP was following
protocol and had an officer in the monument’s chamber.

A video of the incident indicated that USPP officers were conspicuously absent from
their post in the monument’s chamber when the incident occurred. USPP officers did
not arrive in the chamber until several minutes after the men climbed the statue. When
officers did arrive in the chamber, they appeared to turn their backs on the protestors
and put greater effort into forcing tourists out of the statue chamber.

The video also indicated that contract security personnel, present in the monument’s
chamber at the time of the incident, did not intervene and did not provide a visual
deterrence. The security guards appeared confused and ill equipped to address the



                                                                                       15
                                                                                              X
   problem. Security guards were pictured standing among onlookers, watching the
   incident unfold.




                                Protestors at the Lincoln Memorial




SECURITY PLANS
   USPP has failed to establish written comprehensive security plans that would be
   expected of a professional federal law enforcement program responsible for protecting
   national icons. In April 2006, the Department established asset security requirements
   that included a mandate for the creation of written asset security plans that identify
   practices, procedures, responsibilities, and equipment used to secure each key asset.
   However, when we requested copies of written asset security plans from USPP for the
   national icons, we were only given documents that detailed staffing requirements and
   beat assignments.

   The documents provided by USPP as icon security plans do not address incident
   response preparation, public safety concerns, or the interaction of USPP with other
   federal and local area law enforcement agencies in the event of a major incident at the
   icons. Without asset security plans, there is no preplanned response in the event of an
   emergency. During an interview with the Chief of Police, he acknowledged that the



                                                                                         16
                                                                                                   X
   lack of asset security plans is, “a weakness that we needed to work on.” He added, “We
   will get something out.”

   Seventy-one percent of the officers we interviewed who are regularly assigned to icon
   security stated that security plans are not being followed. That being said, many of the
   officers and managers we interviewed stated that they were unaware of any written
   asset security plans. Twenty-nine percent of the officers we interviewed stated that
   their responsibilities at the icons have never been explained to them. Many of the
   officers stated that their post responsibilities are typically passed down from one officer
   to another and not presented in a formal security plan or through any formal training
   provided by USPP.

   While we understand that the Department’s mandate for written asset security plans is
   relatively new, this does not excuse USPP’s overall lack of preparation to address
   threats to the national icons. Six years have passed since the tragic events of September
   11, 2001, and over 4 years have passed since the President of the United States issued
   the National Strategy for the Physical Protection of Critical Infrastructures and Key Assets.
   Thus far, USPP has failed to prepare comprehensive asset security plans for its national
   icons.


TRAINING & QUALIFICATIONS
   Sixty-eight percent of the officers we interviewed stated that they had not received
   specialized icon security training. USPP officers only attend basic police training at the
   Federal Law Enforcement Training Center; they do not receive asset protection or other
   specialized threat identification training such as the Transportation Security
   Administration’s Screening of Passengers by Observation Technique. This technique
   uses behavior observation and analysis techniques to identify potentially high-risk
   passengers.

   Officers told us that the little training they receive is provided during roll call or
   through some other informal manner. In Washington, D.C., on days when officers are
   assigned to icon duties, they do not attend roll call and therefore miss these training
   opportunities. Roll call training is not tracked or monitored by the USPP Training
   Branch.

   When we began our assessment, the lieutenant serving as the security manager
   responsible for the national icons in Washington, D.C., had already announced his
   retirement. While his departure date was not scheduled until late May, he told us he
   had notified the Chief of Police of his retirement months in advance so that a successor
   could be selected and properly trained. Despite this advanced notice, USPP officials did
   not select his replacement until after the lieutenant retired. The lieutenant selected to



                                                                                              17
                                                                                              X
replace him told us he has no previous security training and is now in charge of
overseeing the security of the three national icons in Washington, D.C. We believe this
further illustrates USPP’s overall lack of commitment to its icon security
responsibilities.

We found that the lack of training is not isolated to icon security. Seventy-eight percent
of the officers interviewed stated that their overall training needs are not being met. For
instance, USPP’s General Orders require that officers receive a minimum of 40 hours of
training yearly, yet many of the officers we interviewed said they do not receive the
minimum required training. We found that USPP recently offered its annual in-service
training for the first time in almost 5 years. Additionally, officers and managers told us
that there is no budget for outside training and officers must attend training classes that
are free of charge.

                              RECOMMENDATIONS

       1. NPS, along with OLESEM, should revisit its decision on how to best achieve
          security coverage at national icons under its purview. NPS should consider
          grouping the icon parks in a separate category, outside the traditional
          regional grouping for all security-related matters, including funding. This
          would allow for more specific oversight of icon parks and consistent security
          planning and security operations.

       2. NPS should hire a qualified senior-level certified security professional to
          oversee NPS security operations at all icon parks, to include icon parks
          currently managed by USPP. Among other duties, this individual should be
          responsible for security, policy, and budget planning for all icon parks.
          OLESEM should make certain that NPS becomes compliant with the
          Secretary’s directive regarding hiring this security manager. If it is
          impractical for NPS to immediately install a certified security professional,
          USPP should create an interim executive-level command position to oversee
          its icon security program.

       3. NPS should ensure that trained and certified security professionals are placed
          at each icon park to work under the direction of the senior-level security
          professional. Selection of personnel for these positions should be based on
          their knowledge of security principles, with no requirement that they already
          be sworn USPP personnel assigned to the icon park.

       4. NPS should conduct a thorough examination by trained certified security
          professionals on how best to deploy all resources to include contract security
          guard services at icon posts.



                                                                                        18
                                                                                     X
5. USPP should immediately assess its ability to effectively use CCTV systems at
   the icons. At a minimum, an increase in the number of personnel monitoring
   the CCTV system during a shift must be made along with the necessary
   upgrade of equipment, as recommended by the Department’s OLESEM.

6. USPP, working with OLESEM, should immediately develop asset security
   plans in accordance with the Department Manual (444 DM 2), using trained
   and certified security professionals.

7. USPP should establish a formal training program identifying minimum
   security training requirements for officers, supervisors, and commanders
   charged with protecting the national icons. All training records should be
   tracked and maintained by USPP’s Training Branch.




                                                                                19
                             OFFICER SAFETY                                                            X
   Taking steps to help ensure the safety of law enforcement officers is critical due to the
   obvious element of potential danger associated with their mission. We were alarmed
   when the Fraternal Order of Police reported that 98.3 percent of survey respondents did
   not believe USPP was doing its best to equip and protect its officers. Officer safety
   issues can be difficult to assess without quantitative statistics showing actual injuries
   and fatalities. However, for obvious reasons, working to take proactive measures to
   help ensure officer safety is more desirable than taking reactive measures.

   Certain officer safety issues are subjective; for example, the level of staffing necessary to
   ensure officer safety is a matter of judgment. Other officer safety issues are not as
   subjective. Having ballistic vests that meet the federal standards and meeting
   established weapons qualification standards are issues that are unequivocally
   recognized by the law enforcement community as necessities for officer safety. USPP
   has taken steps to meet these requirements, but these steps have fallen short of the
   desired goal.


STAFFING

   The most prominent complaint
   heard throughout our interviews                               Staffing Levels

   and from e-mail submissions                   630 625
                                                                   621              621
   involved inadequate staffing levels.          620                        614

   We heard this complaint from all              610
                                                            602
                                                 Sworn Officers




                                                 600
   levels of USPP, with 67 percent of            590
                                                                                         592


   those interviewed stating that                580                                           578

   staffing requirements for icon                570

   security alone are not being                  560


   followed. When asked how this
                                                 550
                                                     2001  2002   2003      2004    2005 2006 2007 *

   shortage affects the organization,                                 Calendar Year
                                               *Staffing Level as of 7/24/07


   many of the officers stated that
   they believe that the lack of staffing has created officer safety and public safety issues.
   The officers we interviewed further explained that even a relatively small incident such
   as a medical emergency immediately creates a short staffing situation resulting in a
   potential officer safety concern. One officer wrote in an e-mail, “As a whole we are
   understaffed, and should an incident arise nearly all of our resources are pulled to that
   scene, leaving the rest of the icons and park areas without any sort of response if a
   second incident occurred simultaneously.”

   We found that despite having increased security and law enforcement responsibilities
   since the events of September, 11, 2001, USPP’s staffing levels are lower now than they
   were 6 years ago. While we did not conduct an overall staffing analysis, the issues with
   staffing are not new to USPP. The National Academy of Public Administration has



                                                                                                  20
                                                                                                    X
   repeatedly recommended that USPP assess its staffing needs and set priorities. While
   USPP has shifted its staffing priorities with its added responsibilities for icon security, it
   continues to struggle to adequately reach and maintain the delicate balance required to
   provide professional protection to the national icons while meeting its designated law
   enforcement obligations.

   While icon security staffing requirements are not being met, even the attempt to meet
   them has caused significant staffing shortages in other patrol districts and among the
   specialty units. One officer’s e-mail stated the following:

           As to personnel, we are so under staffed that the management is pulling
           motor units, horsemounted units, and swat units to cover different beats.
           We do not have enough personnel to safely protect and assist all the
           tourist and visitors that we have on our jurisdiction. If we have a Motor
           Vehicle Fatality on one of the parkways, there goes every patrol officer in
           that District. We are spread way to thin.

   Officers provided anecdotal accounts of patrolling unfamiliar areas alone and covering
   entire parkways with only two patrol cars and intermittent radio coverage in the
   Washington metropolitan area. Some officers admitted that at times they respond to
   incidents differently than they would under normal circumstances because of the lack
   of backup assistance available. Officers interviewed from USPP specialized units
   reported operating without the necessary maintenance training for their specific duties.

   When we asked the Chief of Police how current staffing levels affect the organization,
   he did not mention officer safety as a concern; rather, he stated that staffing shortages
   result in increased overtime costs and low morale among the force.


FIREARMS

   USPP has not ensured that its officers meet minimum firearm qualification standards
   with their duty weapons. This problem came to our attention during a site visit to the
   San Francisco Field Office, where a USPP manager informed us that officers assigned to
   the field office had not qualified with their duty weapons in over a year. The manager
   told us this occurred because there was of a lack of ammunition. The manager added
   that the field office had repeatedly requested ammunition and had even offered to buy
   it themselves; however, their requests were continually denied by Headquarters’
   Services Division. A mid-level manager within the Training Branch, assigned to
   address the issue, confirmed that San Francisco Field Office officers had not qualified in
   over a year and the field office was no longer authorized to purchase ammunition. The
   mid-level manager further stated that the ammunition necessary for San Francisco Field




                                                                                               21
                                                                                              X
Office officers to qualify on their duty weapons had not been ordered as of our
interview on August 9, 2007.

USPP officials provided us with a litany of excuses as to how this occurred. The Deputy
Chief of the Services Division explained that the purchase of ammunition is completed
centrally as part of a larger initiative to streamline the financial processes within USPP.
She told us the central purchasing approach was a work-in-progress and is nearing
completion. The interim allowed for certain responsibilities previously performed by
the individual field offices to fall through the cracks. The Assistant Chief supported
this explanation, stating that the central ordering process did not work in this instance.
A mid-level manager within the Training Branch assigned to review the issue explained
that the paperwork for purchasing the ammunition had been completed but never
made it to the vendor, the civilian firearms instructor who formerly ordered
ammunition had resigned, the major and captain positions within Training Branch were
vacant, the former lieutenant was transferred, the newly assigned lieutenant had not yet
taken over, and the civilian administrative personnel were few and overworked. When
we asked the Chief of Police about the situation, he accepted responsibility and
acknowledged that there was a lack of accountability.

Upon discovering that officers in San
Francisco had not qualified on their
                                                Percentage of Officers Who Have Not
firearms in over a year, we requested       Qualified With Their Firearm in the Past Year
firearms qualification records for all
USPP sworn officers. Records                San Francisco Washington         New York
showed that 93 percent of the
officers in San Francisco had not                93%             7%              3%
qualified with their duty weapon in
over a year. While not nearly as
significant of a figure, Washington and New York also had a number of officers who
had not qualified in the past year, with 7 percent and 3 percent, respectively. The USPP
General Orders require that officers qualify at least semi-annually at a force-approved
firearms course with a force-issued handgun or other handgun authorized for the
officer’s use. Additionally, officers must qualify with the force-issued shotgun at least
semi-annually. One officer stated, “[USPP has] numerous shotguns. No one has re-
qualified on [the shotgun] for the past 2 years due to lack of space/range location to
shoot the shotgun and ammunition restrictions at these locations.”

We discovered that USPP approved a transition from a 9-millimeter duty pistol to a 40­
caliber duty pistol in November 2003. In February and March 2005, a series of
memoranda internal to USPP indicated that USPP officials planned to transition these
weapons over a 3-year period. While command staff never established a firm
completion date, we found that 67 percent of the officers we interviewed during our
assessment had not been transitioned to the new 40-caliber duty weapon.



                                                                                        22
                                                                                                   X
   We discovered that USPP does not have a formal comprehensive weapon transition
   plan that officially sets guidelines for USPP’s current transition from a 9-millimeter
   duty weapon, with a unique grip cocking mechanism, to a 40-caliber duty weapon.
   Sixty-two percent of the officers we interviewed consider having two different weapons
   among the force as an officer safety issue. Some officers discounted these concerns,
   explaining that USPP often works with other law enforcement agencies and there is no
   compatibility between weapons from agency to agency. In addition, some officers
   believe that situations in which the need to use another officer’s weapon and have
   compatible ammunition are highly unlikely. The Chief of Police stated that he did not
   feel weapons compatibility is a safety issue and noted that officers are trained to handle
   all firearms used by USPP as well as other weapons officers might come into contact
   with in the performance of their duties. Admittedly, having two weapons among the
   force only presents an officer safety concern in an extreme situation; however,
   discounting the possibility of an improbable situation can be risky.


BALLISTIC VESTS

   We discovered that many of the ballistic vests worn by USPP officers, manufactured by
   First Choice Armor & Equipment, Inc., contain Zylon material. The National Institute
   of Justice began testing Zylon after a police officer was shot in 2003 through a ballistic
   vest made primarily of the material. According to the National Institute of Justice
   Journal, “[U]nder the 2005 interim requirements, [the National Institute of Justice] will
   not deem armor models containing PBO (the chemical basis of Zylon) to be compliant
   unless manufacturers provide satisfactory evidence to [the National Institute of Justice]
   that the models will maintain their ballistic performance over their declared warranty
   period.”

   The Solicitor’s Office provided us with an e-mail, dated March 20, 2006, in which a sales
   representative from First Choice offered to replace the vests at no cost to USPP.
   However, as of September 1, 2007, the vests had not been replaced. It is unclear what
   happened in the interim; in fact, in trying to clarify the issue, the Assistant Chief told us
   that all of the information we had been provided up to that point was incorrect. When
   asked about the e-mail offer, senior management stated that the manufacturer later
   changed its offer verbally. Senior management claimed that First Choice insisted that
   USPP amortize the value of the vests and pay a portion of the cost for those vests used
   by USPP for a significant period of time. First Choice admitted that it later suggested
   that a partial payment on the used portion of the vest would be fair. These semantics
   hardly matter considering that USPP senior management also told us that they had
   never denied the replacement of a ballistic vest due to a lack of funding. Zylon has not
   met National Institute of Justice standards for approximately 2 years, a fact of which
   USPP was aware yet failed to take immediate corrective action. Negotiations between




                                                                                              23
                                                                                              X
USPP and First Choice are currently ongoing, but no formal replacement agreement has
been approved.

We found that USPP has no formal written policy governing the replacement of ballistic
vests issued to its officers. The Fraternal Order of Police has argued that ballistic vests
should be replaced at the end of their 5-year warranty cycle and has criticized USPP for
not adopting this practice. The Assistant Chief defended USPP’s replacement practice,
stating, “Would you replace your refrigerator simply because the warranty expired?”
He explained that age alone does not determine the serviceability of the vest; rather,
how the vest is worn and maintained determines how effective the vest will be.

Rather than replace the vests when their warranties expire, the Assistant Chief
explained that supervisors are supposed to examine each officer’s ballistic vest annually
to determine its serviceability. Vests are then replaced as needed. While we found no
written policy requiring ballistic vest inspections, each officer’s general orders contains
a ballistic vest inspection form to be completed by the officer’s immediate supervisor.
Thirty-nine percent of the officers we interviewed, however, stated that their vests are
not inspected annually. Many officers with whom we spoke did not recognize the
annual review as an inspection of the condition of their vest but rather a check of
accountable property.

We learned of instances where officers who possessed unsatisfactory vests were unable
to obtain a new vest issued even after supervisors approved the request. We were told
that one officer, who was originally issued a vest that was too large, resorted to
constructing a temporary replacement by piecing together parts from old vests obtained
from USPP used property. Despite
repeated efforts by the officer and the
officer’s supervisors, the officer was not
issued a new vest for nearly 3 years. Other
officers who reported having moldy vests
still await replacements. One of the
officers told us he brought the issue to the
attention of the vest manufacturer over a
year ago. The officer stated that he had
received “no support from upper
management on this issue” and that mold
caused him a medical condition that “had                   An Officer’s Moldy Vest

to be treated by a physician.”

Although the USPP property officer stated that requests for replacement vests are
normally approved, he also said requests are occasionally denied due to a lack of funds.
Senior USPP officials contradicted the property manager’s statement, claiming that vest
replacement requests are never denied for financial reasons.



                                                                                        24
                                                                                                 X
   We discovered that USPP does not maintain a reliable inventory of ballistic vests that
   includes the date each officer was issued his/her vest. We found significant
   discrepancies between vest inventory lists that USPP provided to us compared to a
   current roster of officers. In addition we were told by an attorney in the Solicitor’s
   Office who has been working on the Zylon issue, that USPP’s ballistic vest inventory
   system is unreliable.


VEHICLES

   Many of the officers we interviewed in the Washington, D.C., area claimed that USPP
   does not have enough vehicles for them to properly patrol and respond to calls for
   service. They also said many of the available vehicles are ill equipped to respond to
   emergencies.

   We had received reports that officers assigned to icon security posts had been
   responding to calls using their personally owned vehicles. None of the officers we
   interviewed admitted to responding to a call using their personally owned vehicle;
   however, many of those officers also stated that it would be unconscionable for them
   not to respond to a call for assistance even though an officer had a personally owned
   vehicle.

   Ninety-three percent of the officers we interviewed, who were assigned to the
   Washington metropolitan area, acknowledged driving a personally owned vehicle to
   their beat or post and when traveling from one beat or post to another. While there has
   been no formal scheduled beat or post rotation of officers assigned to icon security,
   officers told us that logistics sometimes require officers to move from one beat or post to
   another in order to backfill assignments that are short staffed.

   On two occasions, we witnessed officers patrolling in a USPP utility van with nothing
   more than a factory horn and hazard lights to use as emergency equipment. At the
   same time, two relatively new, well equipped police cars were parked in the parking lot
   of the Central District Station, not being used. We were told these vehicles were
   reserved for the icon security commander and a district commander, two positions that
   were then vacant.




                                                                                            25
                                                                                             X




                             Utility Van Used as a Patrol Vehicle




We found that the home-to-work car program in Washington, D.C., has resulted in an
uneven distribution of cars among the working shifts. Officers told us that home-to­
work cars are issued to officers based on seniority and that certain vehicles are not used
for patrol due to their home-to-work status, even when available. For example, if an
individual is assigned to work the duty desk and has a home-to-work vehicle, the
vehicle will remain parked in the lot for the entire shift even if officers assigned to
patrol do not have a vehicle. Officers also told us that not enough vehicles were
available for patrol activities for one shift because a majority of the home-to-work
vehicles were assigned to another shift.

One senior official commenting on the problem stated that the home-to-work car
program is not a failure but, “It was probably not well thought out.” The official stated
further that USPP headquarters is responsible for ensuring that the appropriate number
of vehicles are assigned to each district and division; the district commander is then
responsible for ensuring that the cars are dispersed appropriately within the district.




                                                                                        26
                                                                                                        X
Many officers we spoke with in the
Washington, D.C., area expressed                 Washington Area Vehicles Total Mileage
                                                                                              80
concern over aging vehicles used              80

for patrol in Washington, D.C.




                                                  Number of Vehicles
USPP provided us with a vehicle               60
                                                                              46
inventory accounting for 257                                        40
                                                                                     34
vehicles in the Washington                    40
                                                     28     29

metropolitan area. Our analysis of
that inventory indicated that                 20


nearly 63 percent of the 257
                                               0
vehicles had over 60,000 miles and                0-20  20-40  40-60      60-80  80-100   100+
                                                                                         and/or
31 percent had over 100,000 miles                                                       surveyed

and/or had been taken out of                                        Mileage
                                                               (in thousands)
service. We also found that 81
percent of those vehicles were over
3 years old, and 39 percent were over 5 years old.

In comparison, we found the Government Services Administration (GSA) that provides
marked police vehicles to several federal uniformed law enforcement agencies
including the Federal Protective Service and the Pentagon Police, replaces vehicles after
three years and 36,000 miles, or four years regardless of mileage. The United States
Secret Service Uniform Division who uses GSA vehicles reported that their replacement
plan is three years and 40,000 miles, or four years if the vehicle has not reached 40,000
miles. GSA maintains no police sedan with more than 60,000 miles, regardless of age.
The United States Capitol Police who maintain their own vehicle fleet have recently
extended the service life of their police vehicles to seven years or 100,000 miles.

A deputy chief told us that USPP headquarters staff had not yet centralized vehicle
procurement and replacement as had been done with ammunition. While the San
Francisco Field Office and the New York Field Office predominantly lease their vehicles
through GSA and are responsible for meeting GSA fleet requirements, the Washington
Office purchases a majority of its vehicles and is therefore responsible for managing and
maintaining their own fleet.

In its 2004 report to Congress and NPS, the National Academy of Public Administration
panel recommended that USPP develop a multi-year replacement plan for cruisers and
other capital equipment in the Washington, D.C., area. A USPP senior official told us
that to date, USPP had still not instituted a formal vehicle replacement plan or
transportation policy. The official informed us that USPP had drafted a replacement
plan but did not formalize the plan because NPS was producing a comprehensive
general fleet management plan that would apply to the entire agency. USPP officials
said they elected to wait for NPS to formalize its policy even though they did not have
any interim provision.



                                                                                                   27
                                                                                               X

While officer safety is the main concern regarding the poor state of USPP vehicles, we
also note that this situation has created a morale issue as well. Numerous officers
reported that they were not only concerned for their safety, but they were also
embarrassed to represent USPP in such vehicles in front of the public and other law
enforcement entities.

                             RECOMMENDATIONS

   8. USPP must re-evaluate staffing levels, working to alleviate officer safety
      concerns either through new hires or through a redistribution of personnel.
      Redistribution of officers must take into consideration mission priorities and
      risks associated with particular assignments.

   9. USPP should develop and promptly execute a plan to complete its weapons
      transition. The plan should address the potential safety concerns of having two
      different weapons and identify a transition schedule, setting a final date of
      completion for the transition.

   10. USPP should develop and maintain a system that effectively tracks firearms
       qualifications and notifies Command Staff when these qualifications are not
       being met. USPP should also ensure that adequate ammunition and firearms
       range facilities are available to facilitate timely firearms qualifications.

   11. USPP should continue to work with the Solicitor’s Office in a cooperative and
       proactive manner and ensure that each and every USPP officer is wearing a
       ballistic vest that meets National Institute of Justice standards and does not
       contain Zylon as soon as possible.

   12. USPP should maintain a reliable inventory of ballistic vests issued to officers.
       This inventory should include the issue date, the warranty expiration date, and
       any reported problems with the vest.

   13. USPP should develop an interim vehicle replacement plan in an effort to manage
       its government vehicles in a safe and fiscally prudent manner while awaiting the
       specific detailed NPS vehicle replacement plan that will be mandatory upon
       completion.

   14. USPP should re-examine its home-to-work vehicle policy to determine whether
       the program is necessary for emergency response and whether the program
       allows for the most efficient use of the USPP fleet.




                                                                                          28
                    FINANCIAL MANAGEMENT                                                            X
   USPP’s operational budget has remained consistent                  USPP Appropriations
   throughout the last 4 fiscal years with the exception of a $5           2004-2007
   million increase in its fiscal year 2007 budget request. In
                                                                       FY 2004 - $78 million
   addition, from fiscal year 2004 through fiscal year 2007,           FY 2005 - $80 million
   USPP has received $4.4 million in reimbursements, about             FY 2006 - $80 million
   $2.8 million from Emergency Law and Order funding and               FY 2007 - $85 million

   nearly $155,000 from individual parks.

   In 2001, Congress created a new appropriation for USPP operations, which established
   a USPP budget separate from NPS’ National Capital Region. As a result of this
   separation, USPP became responsible for administrative services that were previously
   encompassed under the National Capital Region. This directive required USPP to take
   control over the management of its appropriation and reorganize its infrastructure to
   carry out these services.

   We found that once given this responsibility, USPP failed to put the proper
   infrastructure in place to successfully manage its own financial affairs. Specifically, we
   found that USPP did not use sound business practices for planning, accounting for, and
   monitoring the use of funds.


BUDGET FORMULATION & EXECUTION
   Over the last few years, USPP experienced severe budget and financial difficulties.
   After interviewing a substantial part of the force and civilian employees, the general
   perception across USPP was that some malfeasance occurred and that USPP is not
   effectively projecting its budget needs or properly managing its appropriated funds. A
   primary factor behind USPP’s budget breakdown was its inexperience at managing its
   own funds and the lack of oversight by a qualified individual proficient in the skills
   required to manage USPP’s appropriation.

   A budget office with proper qualifications and skills should possess the ability to
   accurately report or forecast an organization’s budget at any given time. The budget
   and financial process, and decisions made regarding that process, can have a substantial
   effect on the efficiency of an operation as well as long-term influences. USPP failed to
   use the required tools to administer a successful budget and finance function and,
   therefore, failed to safeguard the financial integrity of its program.

   During fiscal year 2005, USPP’s inability to properly forecast and track its budgetary
   needs resulted in a year-end shortfall of approximately $650,000. The Assistant Chief
   explained that the Financial Operations Officer told him that USPP was operating on a
   budget surplus throughout the year, when in reality USPP was operating at a deficit.
   This mistake required assistance from NPS headquarters and the National Capital



                                                                                               29
                                                                                              X
Region to make certain that funds were available to cover USPP obligations and ensure
a successful year-end closing of USPP’s financial records. To accomplish this, the
$650,000 of costs incurred by USPP was transferred to the National Capital Region; the
NPS Washington Office then provided the National Capital Region with additional
funding to cover these unexpected costs.

Apparently, USPP did not learn from its mistakes in fiscal year 2005, as it faced another
budget deficit at the end of fiscal year 2006. Again, throughout 2006, USPP
management was under the impression that it was operating on a budget surplus.
However, at the end of the year, the NPS Washington Office and the National Capital
Region were forced to intervene, aiding USPP in adjusting its $2.3 million shortfall at
year end, to avoid a potential Anti-Deficient Act violation. Aside from relying on NPS
to balance its budget, USPP budget projections ranged from a $6 million surplus to over
a $2 million deficit within a few months’ time. This range of $8 million, in relation to an
$80 million appropriation, is unacceptable. According to a USPP official, the fiscal year
2005 and fiscal year 2006 shortfalls were a consequence of USPP’s former Financial
Operations Officer’s failure to project and track budgetary expenditures and
requirements. However, the former Financial Operations Officer said that USPP budget
issues did not begin during her tenure and that USPP’s troubles existed long before she
began her employment at USPP.

NPS funded the $2.3 million shortfall through several avenues, including the following:
using Emergency Law and Order funds, transferring costs incurred by USPP (that were
split between USPP and the National Capital Region at the beginning of the USPP
separation) back to the National Capital Region, using construction funding from
contracts that were delayed, using Statue of Liberty concessions program funding that
was set aside by the park for overtime, and using terrorism program funding available
from fiscal year 2002 funding (See chart on following page).

According to USPP and NPS managers, Emergency Law and Order funding was
available for unforeseen situations where law enforcement was necessary. Officials
from the NPS Budget Office stated that NPS is authorized to use Emergency Law and
Order funds through Public Law 102-381, which states the following:

       That hereafter, any funds available to the National Park Service may be
       used, with the approval of the Secretary, to maintain law and order in
       emergency and other unforeseen law enforcement situations and conduct
       emergency search and rescue operations in the National Park System….

Typically, funding requests for recurring events, such as the International Monetary
Fund and World Bank protests, are already included in the budget request and are pre-
planned, but there are times when an event is unexpected, and, if not reimbursed, USPP
may request Emergency Law and Order funding.



                                                                                        30
                                                                                         X




The NPS Comptroller told us that in fiscal year 2006, unforeseen events, such as the
immigration demonstration, were inappropriately funded throughout the year using
USPP’s operating budget. Thus, Emergency Law and Order funds were later used to
readjust USPP’s resulting budget shortfall. These adjustments were authorized in an
NPS memo from the NPS Comptroller to the Assistant Secretary for Fish, Wildlife, and
Parks, dated September 29, 2006. The memo stated that these expenditures could be
absorbed using the unobligated balance remaining in NPS’ annual operating
appropriation. The memo also stated, if necessary, any expenditures that could not be
absorbed in the annual appropriation could be transferred to the “Construction”
appropriation.

Further highlighting USPP’s poor planning and budget execution, in fiscal year 2005,
USPP received an appropriation increase of $2 million, which included $500,000 that
USPP identified as needed for new officers to staff the Statue of Liberty reopening.
Although USPP hired new recruits in 2005, USPP did not assign any new officers to the
Statue of Liberty and NPS spent over $500,000 in USPP overtime costs. Despite its
$2 million appropriation increase, USPP did not have enough funding to cover these
overtime costs. Furthermore, in 2006, USPP had not scheduled any new officers to be
placed at the Statue of Liberty, and USPP again did not have enough funding to cover
overtime costs. Ultimately, after the approval of the NPS Comptroller, USPP
transferred its additional overtime costs of $90,000 to NPS so that USPP could
successfully balance its 2006 budget.



                                                                                    31
                                                                                                 X

ACCOUNTABILITY

   One of the most significant responsibilities for a finance office is to ensure a successful
   year-end close out. If not for the aid from NPS, this would not have occurred for USPP
   in both fiscal years 2005 and 2006. The consequences of failing to successfully close out
   at year-end are considerable and can have a negative impact on USPP, its future, and its
   capacity to manage its appropriation. According to USPP management, USPP’s budget
   problems began when USPP separated from the National Capital Region. Since the
   separation, those responsible for managing USPP’s budget have lacked the experience
   and knowledge needed to forecast, monitor, and expend federal funds.

   The Office of Management and Budget Circular No. A-123, Management’s Responsibility
   for Internal Control, states that federal employees must ensure that government
   resources are used efficiently and effectively to achieve intended program results. In
   addition, resources must be used in compliance with laws and regulations and with
   minimal potential for waste, fraud, and mismanagement.

   As a result of concerns raised by NPS’ Accounting Operations Center, NPS’ contracting
   office initiated a review of USPP procurement activities. After its preliminary review,
   the contracting office took measures to suspend USPP contract and purchase card
   authority in May 2006. The contracting office then conducted a more detailed review
   of USPP procurement files and found USPP procurement operations to be significantly
   deficient and inconsistent with Federal Acquisition Regulations and USPP policy,
   jeopardizing procurement integrity and NPS' rights and responsibilities in its business
   relationships.

   The review resulted in multiple findings regarding both the procurement and financial
   functions. The most troublesome procurement findings included the following: (1)
   internal controls were absent; (2) the Interior Department Electronic Acquisition
   System, a required NPS database, was not used during the requisition phase of the
   procurement process; and (3) contracting files did not contain supporting
   documentation required by law, regulation, and policy. Furthermore, the financial
   findings included the following; (1) the finance office lacked appropriate separation of
   duties; (2) invoices were stamped for payment but lacked the approval signature and
   date; and (3) funds were inappropriately deobligated at the end of the last 2 fiscal years.

   In addition to the contracting office review, the NPS Deputy Director requested that an
   NPS official conduct an additional review to evaluate the state of the USPP budget and
   finance office. The official found USPP to be in a state of uncertainty, with employees
   unaware of their roles and responsibilities. The official also found a lack of historical
   data and a lack of administrative policy and procedural manuals. This NPS official
   spent several months reviewing and reconciling the agency’s expenditures, while



                                                                                            32
                                                                                             X
performing several other functions, and found that USPP failed to adequately and
accurately project budget expenditures. These inaccuracies led to management’s false
perception that there was sufficient funding to cover all costs. According to NPS, there
was no analysis of the projected payroll costs, thus inflating the amount of funding
available.

Once the NPS official discovered that USPP did not have enough funds available to
cover the year-end shortfall, the official informed USPP management of its impending
deficit in June 2006, only to watch USPP allow the situation to worsen. Unfortunately,
USPP did not address this shortfall until September which added preventable stress to
the situation. Rather than rectifying the situation early on, after several warnings from
NPS and NCR budget experts, USPP chose to ignore warnings.

According to the NPS Director, to address the situation, NPS compiled a recovery plan
to ensure that USPP finance issues were properly resolved. NPS also withdrew USPP
purchase authority, moved USPP’s contract acquisition function under the NPS
Washington Office, and requested that the National Capital Region provide earnest
oversight and authority over USPP budget and finance functions until USPP hired a
qualified individual to manage its budget.

Internal controls serve as the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. According to GAO, Standards for Internal Controls,
transactions should be promptly and accurately recorded. In addition, all transactions
need to be clearly documented and readily available for examination and the
documentation should appear in management directives, administrative policies, and
operating manuals. All documentation and records should be properly managed and
maintained, and effective communications should occur with information flowing
down, across, and up the organization. As found by NPS, USPP failed to achieve these
essential standards and minimized its probability of discovering fraud or misuse.
Without proper internal controls, USPP funding has a high risk of fraud.



                              RECOMMENDATIONS

   15. USPP should hire a finance professional with strong budget formulation and
       execution skills.

   16. USPP should take actions to be in compliance with GAO, Standards for Internal
       Controls regarding properly managing transactions and documentation.




                                                                                        33
                               MANAGEMENT                                                        X
   Trust and integrity are cornerstones to a law enforcement agency’s success. In fact,
   when defining agency values, USPP’s Web site states that “integrity, honor and service
   are the foundation of everything we do.” However, we found an environment of
   distrust where employees question the ability of senior management to lead USPP.

   Although we did not conduct an in-depth review of USPP management practices, the
   problems we discovered during the assessment, and the comments made to us, indicate
   a systemic lack of management and oversight by senior agency officials that impacts the
   ability of the agency to function as its mission statement intends.


AGENCY MORALE & CONFIDENCE IN COMMAND STAFF
   Numerous officers, civilian staff, and managers commented on the agency’s low morale
   during interviews and through e-mails. Many of these employees stated that morale is
   the lowest it has ever been during their employment with USPP. Our analysis of USPP
   employee exit surveys provided evidence of the declining level of morale. In the exit
   survey, employees were asked to rank morale on a scale of 1 to 5. Our analysis showed
   that the average morale ratings decreased steadily from 4.11 in 2005, to 3.47 in 2006, and
   finally to 2.71 in 2007.

   When we asked the Chief of Police how he would describe agency morale, he replied,
   “Morale is what you make it,” and said that overall, he felt morale was good. He also
   added, “No one has missed a check.” When we informed him that our interviews
   indicated otherwise, he stated, “Morale is all about perception.”

   Actually, one of the contributing factors to the agency’s morale problem is a lack of
   confidence in command staff. The Fraternal Order of Police survey found that only 5
   percent of survey respondents had confidence in USPP Command Staff and only 2.2
   percent had confidence in the Chief of Police. We also noted this distinct lack of faith in
   the command staff during the course of our interviews. We received numerous e-mails
   from officers and employees providing their assessment of command staff with one
   employee stating that “the USPP is in desperate need of strong, honest, responsible,
   dedicated management.” Another employee wrote that “leadership is spotty to
   nonexistent.”

   The command staff exhibited this lack of confidence as well. When we asked one
   senior-level officer what actions needed to be taken to improve USPP, the individual
   indicated that removing the Chief of Police would be a good start. Another senior-level
   officer stated that a significant amount of negativity originates from the Chief’s office,
   which has resulted in many people leaving because they feel demoralized. The Chief
   admitted that he is critical of employees on a number of issues because he finds that
   when he acts favorably toward employees, they in turn expect favors from him.



                                                                                            34
                                                                                                X
   We believe the lack of confidence in the command staff is also reflected in the fact that
   during the course of our assessment, we saw the retirement of the assistant chief, two of
   the three deputy chiefs, two majors, and two captains. While we were told that this
   change in staff is rare and that the high number of resignations of senior staff is merely
   a timing issue, we believe the situation may be indicative of a more serious morale issue
   facing USPP.

   While the Chief sees this as an opportunity for change within USPP, he has no
   immediate plans for filling these positions. We are concerned that the high number of
   retirements of senior staff, in a relatively short period of time, has left a void in what
   was already weak leadership and will hinder the agency in addressing the many issues
   it faces. The Chief has expressed concern that as an agency, USPP does not prepare its
   personnel to be leaders. As a result, prospective commanders may not have the
   necessary experience to assume senior leadership positions. He also told us that he is
   concerned that if he leaves, no one will be capable of replacing him as the chief of
   police.


COMMUNICATION

   We found that poor communication between senior management and field personnel
   has been a contributing factor to the lack of confidence in command staff and low
   morale. Officers and managers alike commented on the overall lack of communication
   within the organization. One manager commented that the Chief, Assistant Chief, and
   Deputy Chiefs have isolated themselves from the rest of the Department.

   When we asked the Chief what action he had taken as a result of the negative results of
   the Fraternal Order of Police employee survey, he told us he is visiting field offices and
   speaking to the officers. However, when we interviewed officers and asked if the Chief
   had performed any outreach, most, if not all, said he had not; some even laughed in
   response to the question. One employee e-mailed us, stating that “despite
   unprecedented moral[e] problems, the chief of police has not come to visit the [New
   York Field Office] in 4 years.” We noted that shortly after we received this e-mail, the
   Chief made a brief appearance at a table-top exercise held at Ellis Island in June 2007.

   Even the Chief of Police acknowledged that communication within the agency is “not as
   good as it should be.” When asked to provide an example of the breakdown in
   communication, the Chief recalled a recent meeting with command staff where he
   realized that many were unfamiliar with the budget process; he said several of the
   attendees did not know for what year the agency was currently formulating the budget.




                                                                                           35
                                                                                                  X

QUALITY CONTROL

   USPP does not have a formal quality control program to ensure that its operations are
   performed in accordance with established policies, procedures, and professional
   standards. While USPP does have an Audits and Evaluations unit, this unit reviews
   specific individual activities, such as evidence, property, and imprest funds. The unit
   does not conduct comprehensive inspections of offices to ensure compliance with
   agency policies. Officials told us a formal program had not existed in years and they
   could not recall the last time USPP conducted field office inspections.

   The importance of a quality control program for law enforcement agencies is clearly
   defined in the Commission on Accreditation for Law Enforcement Agencies, Inc.,
   standards. These recognized law enforcement standards used by federal, state, and
   local agencies explain that a formal inspection process “is an essential mechanism for
   evaluating the quality of the agency’s operations; ensuring that the agency’s goals are
   being pursued; identifying the need for additional resources; and ensuring that control
   is maintained throughout the agency.” Inspections further benefit the agency by
   providing senior management and supervisors with a means of regularly assessing the
   agency’s efficiency and effectiveness. The Chief told us that one of his goals over the
   next 2 years is to obtain accreditation for the agency through the Commission on
   Accreditation for Law Enforcement Agencies, Inc., which would enhance the credibility
   and integrity of USPP operations.

                                RECOMMENDATIONS

      17. USPP management should develop and execute plans to improve
          communication throughout the organization. Plans should consider periodic site
          visits by all levels of management, methods to identify and address employee
          concerns, and centralized methods for dissemination of agency information and
          policy.

      18. USPP should conduct formal quality control inspections annually and devise a
          plan for inspections to be completed at all locations within the next year.

      19. USPP should pursue its goal to receive accreditation from the Commission on
          Accreditation for Law Enforcement Agencies, Inc.

      20. The National Park Service Director, working in conjunction with the Deputy Assistant
          Secretary for Law Enforcement, Security, and Emergency Management should
          immediately assess whether the current Chief of the USPP is equipped to effectively
          advance the mission and operations of the agency.



                                                                                             36
                     RECOMMENDATIONS                                                       X

                                                                              Page
Number   Recommendation                                                      Number
  1      NPS, along with OLESEM, should revisit its decision on how            18
         to best achieve security coverage at national icons under its
         purview. NPS should consider grouping the icon parks in a
         separate category, outside the traditional regional grouping
         for all security-related matters, including funding. This would
         allow for more specific oversight of icon parks and consistent
         security planning and security operations.
  2      NPS should hire a qualified senior-level certified security           18
         professional to oversee NPS security operations at all icon
         parks, to include icon parks currently managed by USPP.
         Among other duties, this individual should be responsible for
         security, policy, and budget planning for all icon parks.
         OLESEM should make certain that NPS becomes compliant
         with the Secretary’s directive regarding hiring this security
         manager. If it is impractical for NPS to immediately install a
         certified security professional, USPP should create an interim
         executive-level command position to oversee its icon security
         program.
  3      NPS should ensure that trained and certified security                 18
         professionals are placed at each icon park to work under the
         direction of the senior-level security professional. Selection of
         personnel for these positions should be based on their
         knowledge of security principles, with no requirement that
         they already be sworn USPP personnel assigned to the icon
         park.
  4      NPS should conduct a thorough examination by trained                  18
         certified security professionals on how best to deploy contract
         security guard services at icon posts.
  5      USPP should immediately assess its ability to effectively use         19
         CCTV systems at the icons. At a minimum, an increase in the
         number of personnel monitoring the CCTV system during a
         shift must be made along with the necessary upgrade of
         equipment, as recommended by the Department’s OLESEM.
  6      USPP, working with OLESEM, should immediately develop                 19
         asset security plans in accordance with the Department
         Manual (444 DM 2), using trained and certified security
         professionals.




                                                                                      37
                                                                                  X
7    USPP should establish a formal training program identifying        19
     minimum security training requirements for officers,
     supervisors, and commanders charged with protecting the
     national icons. All training records should be tracked and
     maintained by USPP’s Training Branch.
8    USPP must re-evaluate staffing levels, working to alleviate        28
     officer safety concerns either through new hires or through a
     redistribution of personnel. Redistribution of officers must
     take into consideration mission priorities and risks associated
     with particular assignments.
9    USPP should develop and promptly execute a plan to                 28
     complete its weapons transition. The plan should address the
     potential safety concerns of having two different weapons and
     identify a transition schedule, setting a final date of
     completion for the transition.
10   USPP should develop and maintain a system that effectively         28
     tracks firearms qualifications and notifies Command Staff
     when these qualifications are not being met. USPP should
     also ensure that adequate ammunition and firearms range
     facilities are available to facilitate timely firearms
     qualifications.
11   USPP should continue to work with the Solicitor’s                  28
     Office in a cooperative and proactive manner and
     ensure that each and every USPP officer is wearing a
     ballistic vest that meets National Institute of Justice
     standards and does not contain Zylon as soon as
     possible.
12   USPP should maintain a reliable inventory of ballistic vests       28
     issued to officers. This inventory should include the issue
     date, the warranty expiration date, and any reported problems
     with the vest.
13   USPP should develop an interim vehicle replacement plan in         28
     an effort to manage its government vehicles in a safe and
     fiscally prudent manner while awaiting the specific detailed
     NPS vehicle replacement plan that will be mandatory upon
     completion.
14   USPP should re-examine its home-to-work vehicle policy to          28
     determine whether the program is necessary for emergency
     response and whether it allows for the most efficient use of the
     USPP fleet.
15   USPP should hire a finance professional with strong budget         33
     formulation and execution skills.




                                                                             38
                                                                               X
16   USPP should take actions to be in compliance with               33
     GAO, Standards for Internal Controls regarding
     properly managing transactions and documentation.
17   USPP management should develop and execute plans to             36
     improve communication throughout the organization. Plans
     should consider periodic site visits by all levels of
     management, methods to identify and address employee
     concerns, and centralized methods for dissemination of
     agency information and policy.
18   USPP should conduct formal quality control inspections          36
     annually and devise a plan for inspections to be completed at
     all locations within the next year.
19   USPP should pursue its goal to receive accreditation from the   36
     Commission on Accreditation for Law Enforcement Agencies,
     Inc.
20   The National Park Service Director, working in conjunction      36
     with the Deputy Assistant Secretary for Law Enforcement,
     Security, and Emergency Management should immediately
     assess whether the current Chief of the USPP is equipped to
     effectively advance the mission and operations of the agency.




                                                                          39
                                                                                            USPP ORGANIZATIONAL STRUCTURE




     *Current organizational chart was not available. This is an abbreviated
     version based on information provided during our assessment.




40
                                                                               Appendix 1
                                                                                               X
                          How to Report
              Fraud, Waste, Abuse and Mismanagement

Fraud, waste, and abuse in government are the concern of everyone, Office of
Inspector General staff, departmental employees, and the general public. We
actively solicit allegations of any inefficient and wasteful practices, fraud, and abuse
related to departmental or Insular Area programs and operations. You can report
allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                         800-424-5081
              Washington Metro Area                     703-487-5435
              Fax                                       703-487-5402

Internet:     http://www.doioig.gov/form/hotlinecmp_form.php




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240

                                        www.doi.gov
                                       www.doioig.gov
